<html>
<title> - JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF VETERANS OF FOREIGN WARS (VFW)</title>
<body><pre>[Senate Hearing 116-401]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-401

     THE LEGISLATIVE PRESENTATION OF VETERANS OF FOREIGN WARS (VFW)

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                           U.S. STATES SENATE

                                AND THE

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

      Formatted for the use of the Committee on Veterans' Affairs
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-911 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Bill Cassidy, Louisiana              Patty Murray, Washington
Mike Rounds, South Dakota            Bernard Sanders, (I) Vermont
Thom Tillis, North Carolina          Sherrod Brown, Ohio
Dan Sullivan, Alaska                 Richard Blumenthal, Connecticut
Marsha Blackburn, Tennessee          Mazie K. Hirono, Hawaii
Kevin Cramer, North Dakota           Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona

                       Adam Reece, Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho Sablan,      Greg Steube, Florida
    Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 Jon Towers, Republican Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              

                             March 6, 2019
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Tester, Hon. John, Ranking Member, U.S. Senator from Montana.....     2
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    20
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    23
Boozman, Hon. John, U.S. Senator from Arkansas...................    33
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    35
Blackburn, Hon. Marsha, U.S. Senator from Tennessee..............    37
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    40
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    42

                            REPRESENTATIVES

Roe, Hon. Phil, Ranking Member, U.S. Representative from 
  Tennessee......................................................     4
Takano, Hon. Mark, Chairman, U.S. Representative from Montana....     6
Lamb, Hon. Conor, U.S. Representative from Pennsylvania..........    25
Bergman, Hon. Jack, U.S. Representative from Michigan............    26
Levin, Hon. Mike, U.S. Representative from California............    28
Radewagen, Hon. Amata C., U.S. Representive from American Samoa..    30
Cisneros, Hon. Gil, U.S. Representative from California..........    31
Banks, Hon. Jim, U.S. Representative from Indiana................    36
Cunningham, Hon. Joe, U.S. Representative from South Carolina....    39

                               WITNESSES

Statement of Udall, Hon. Tom, U.S. Senator from New Mexico.......     9
Lawrence, Vincent B.J., Commander-in-Chief, Veterans of Foreign 
  Wars of the U.S. Accompanied by: Wallace, Bob, Executve 
  Director; Gallucci, Ryan, National Veterans Service Director; 
  Fuentes, Carlos, National Legislative Service Director; and 
  Bencken, Darrell, National Legislative Committee, Chairman.....    11

                                APPENDIX

Lawrence, Vincent B.J., Commander-in-Chief, Veterans of Foreign 
  Wars of the United States, Prepared Statement..................    48

 
 JOINT HEARING ON THE LEGISLATIVE PRESENTATION OF VETERANS OF FOREIGN 
                               WARS (VFW)

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                      United States Senate,
                      and House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 10:00 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Johnny 
Isakson and Hon. Mark Takano, Chairmen of the Committees, 
presiding.
    Senators Present: Isakson, Boozman, Cassidy, Rounds, 
Tillis, Sullivan, Blackburn, Tester, Brown, Blumenthal, Hirono, 
Manchin, and Sinema.
    Representatives Present: Takano, Brownley, Lamb, Levin, 
Rose, Brindisi, Cisneros, Lee, Underwood, Cunningham, Pappas, 
Allred, Peterson, Roe, Radewagen, Bost, Bergman, and Banks.

             OPENING STATEMENT OF CHAIRMAN ISAKSON

    Chairman Isakson. I call this meeting of the Senate and 
House Veterans' Affairs Committees together and welcome our 
VSOs here today. Veterans of Foreign Wars is a great 
organization. They have a beautiful building right down the 
street. They do a great job on behalf of veterans from all wars 
overseas and do a great job working with us, which we 
appreciate a lot.
    I know Tester is not here--oh, there he is. You lost some 
weight. I did not recognize you. You are looking good, as 
always. We are happy to have you--well, you did not come to 
listen to us. We came to listen to you.
    But as Chairman of the Senate Committee I want to tell you 
how proud I am of what we have been able to do on that 
Committee in terms of the Mission Act, accountability, and the 
many things we have done improving the appeals process and 
speeding things up.
    We have a VA that can work for you. We are going to ask you 
to be our partner this year. If you have a problem with the VA, 
call us. Do not just call to complain. Call to tell us what the 
problem was and help us solve the problem. If we have got 
somebody at the VA that is a problem we will get that 
corrected. If you are being a problem, we will get that 
corrected.
    We need to be a team. And the reason I said that is 
important. We need to be a team. We cannot make it everything 
you want it to be. We can make it the best we can make it if we 
work together. But we spend time flaming folks and talking 
about how somebody could have done something better, and then 
we do not do anything productive.
    So I am asking you to help us with that. I have told all 
the chairman of all the committees and all the members of the 
Senate I want them to talk to their LA and their staff that do 
veterans' appeals and veterans' calls and veterans' cases. Let 
me know when they have a good experience. Let me know when they 
have a bad experience, and let me know when they have a 
suggestion that would make the experience for everybody better.
    Our job, the next two years, is to make it work right. It 
is not to introduce some other bill that is supposed to fix 
something. The veterans have got more money, more authority, 
more statutory changes, more of what you wanted them to ever 
invest--not because of me, not because of Jon, but because all 
of us work together. We are a team. We want you to be on our 
team too, because in the end what we all do together is a lot 
more than what we ever do separately.
    So I just want to thank you for everything that you have 
done. I want to take one liberal license. Would all the VFW 
members from Georgia please stand? Go Dogs.
    [Applause.]
    Chairman Isakson. That was a little liberal license.
    It is now my pleasure to introduce my Ranking Member and a 
great friend of mine from Montana, Jon Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Well, thank you, Johnny, and we all 
appreciate your leadership and what you have done as well as 
the House side of things and the whole bipartisan, bicameral 
working together. But Mr. Lawrence, thank you for being here. I 
appreciate what you do. I appreciate your leadership team and 
it is good to see you here today.
    Is my crew from Montana here? Stand up. All right. Thanks, 
guys.
    [Applause.]
    Senator Tester. We have got some good folks in Montana, I 
will tell you that, Commander Lawrence. As I said before, and 
as Johnny just said, we are going to take our cues from you. 
You know better than anyone how the VA is performing across the 
country, what improvements need to be made on behalf of 
veterans and their families, and listening to veterans should 
not be a courtesy from the VA. It should be mandatory. That is 
why we need to hear your view on whether the VA is doing enough 
to accept unacceptable rate of veteran suicides or provide just 
to veterans exposed to toxins during their service, whether it 
is Agent Orange or burn pits, or to address gender disparities 
within the VA to provide more equitable treatment of our women 
veterans, or to ensure all veterans have access to timely and 
high-quality health care, whether they live in Big Sandy, 
Montana, or Atlanta, Georgia.
    We need to know whether the VFW believes that 
implementation of the Mission Act, the largest overhaul of 
veterans' health care in a generation, is being carried out as 
Congress intended and as veterans deserve. There is very little 
concern. I hear it every day from the veterans' community and 
Congress that recently proposed access standards will steer a 
disproportionate amount of veterans and taxpayer dollars to the 
private sector, and despite language in the Mission Act, the VA 
will not hold community providers to the same standards of VA 
providers. So we could end up sending more veterans into 
communities for lower-quality care and longer wait times.
    To top it off, nobody can tell us how many veterans will be 
impacted by these standards or how much it is going to cost. 
All we know is that community care is more expensive than VA 
care and that billions have been paid to third-party 
administrators that should have gone directly to improving the 
lives of you and your fellow veterans.
    The VA refers to concerns about hollowing out the VA health 
care system as false and predictable, but everybody in this 
room--everybody in this room--knows they are very real. 
Veterans deserve a lot more than that. They deserve the truth. 
They deserve a system that works, a system that is built and 
improved with input from you, the VFW, and others.
    Mr. Lawrence, it is great to have you here today to gather 
that input. I want to welcome and I want to thank you for all 
that you have done and your organization is done on behalf of 
veterans and their families. Thank you.
    [Applause.]
    Senator Tester. It is now my pleasure to introduce the 
gentleman from Tennessee, last year's Chairman, this year's 
Ranking Member, Mr. Roe.

               OPENING STATEMENT OF DR. PHIL ROE

    Dr. Roe. Thank you, Mr. Chairman, and first of all I want 
to welcome any Tennesseans who might be here. If you would 
stand. Oh yeah, fantastic. Good. Thank you.
    [Applause.]
    Dr. Roe. I appreciate you being here, and Commander, thank 
you for your team. They are great work with and certainly we 
would not have gotten done last year what we have gotten done 
without the help of your team.
    And I also want to thank my colleagues at the dais, because 
I can tell you that in my 10 years here I have never worked 
closer with--it pains me, from the House, to say anything nice 
about the Senate, but anyway, there were great partners last 
year and we would not have gotten done what we have gotten done 
for our veteran community without their help, so thank you all 
on the Senate side. And it is a very bipartisan--we try to 
check the Republican and Democrat at the door and do what is 
right for our nation's heroes.
    I was at an elementary school this week, on Monday, and I 
asked the children--it was a fifth-grade class, and there were 
probably 40 kids in there, and I asked them to hold up their 
hands if they had anyone in their family who was a veteran or 
was currently serving. About 80 percent of those kids held 
their hand up. That is who we represent, and you all, like I 
am, are the past and we are doing what is right for our 
veterans, but those kids are the future, and with the example 
they have been given by you they will also step up and serve 
this great nation.
    During the last two years, I do not remember a time in my 
time here in Congress we have accomplished as much for our 
nation's heroes. We passed an Accountability and Whistleblower 
Protection bill. I think one of the major pieces of legislation 
is not talked about as much but I think could be transformative 
is the Appeals Modernization, which Mike led right here. It has 
passed into law and is now live.
    The Forever GI Bill, which now allows a veteran--I used the 
GI Bill when I got out of the Army.
    [Applause.]
    Dr. Roe. You know, who knows, with these things, how fast 
technology is changing and rapidly, so a veteran at 50 years of 
age can go back and get retrained going forward.
    The VA Mission Act, which can either be the most 
transformative piece of legislation we have passed in decades 
for the VA or it can just be another piece of paper that is 
written and signed into law, depending on how it is 
implemented. So I look to you to help us, and Commander 
Lawrence and I have had discussions about that. He will be 
coming to my district to look at some things that we have done.
    And I want to thank Chairman Takano for his continuing the 
technology committee that we stood up, the subcommittee that we 
stood up. Look, I told the Secretary that if we do not get this 
Cerner, this electronic health record done right, we both need 
to go into the Witness Protection Program, and it is one that 
we absolutely have got to get right going forward.
    And we talked about burn pits. We passed a piece of 
legislation yesterday on the House floor. But think about this. 
If you are allowed--if you go into DoD as an 18-year old and 50 
years later something may have happened to you, who knows what, 
if you have got that virtual lifetime electronic health record 
we can go back and mine that data and find out did it actually 
affect you--positively, negatively, whatever? So that is hugely 
important.
    Three other things very briefly I want to talk about, one 
very near and dear to my heart. I am a Vietnam-era veteran. I 
served in Korea, Camp Casey and other places in Korea.
    [Applause.]
    Dr. Roe. But one of the things that is very near and dear 
to my heart are the Blue Water Navy vets. Look, we left a war, 
in 1975, that did not go well for this country and it took us a 
couple of decades to finally get our swagger back in this 
country. It is time that we treated those Blue Water Navy, that 
were off the coast of Vietnam, exactly the same as we treated 
every other veteran that put their feet on the ground there. So 
I need your help.
    [Applause.]
    Dr. Roe. To finish up, and I know the Chairman will have 
comments about this, but another thing that troubles me greatly 
as a physician is suicide. I just saw, the AMA published a 
piece of information yesterday that said that with alcohol and 
drugs and suicide, those three things, almost 47 Americans per 
100,000 die each year. That is not only a veteran tragedy, that 
is an American tragedy, and we have to change that.
    We are having a roundtable this afternoon, the Chairman has 
called, on veteran suicide. The President, as you know, had a 
declaration yesterday, an Executive order. It is going to take 
more than Executive orders and declarations, folks. This is 
very troubling to me that 20, or whatever the number is, commit 
suicide each day.
    And lastly, our homeless veterans. Ten percent are in Los 
Angeles County, of all the homeless veterans in America. This 
is a scourge on our country, as wealthy as we are, to have one 
veteran living homeless anywhere.
    So I want to finish by thanking you for the privilege to 
serve on this Committee. It has been. I look forward to working 
with you all and I look forward to this Congress, and I yield 
back.
    Chairman Isakson. You know, we all make mistakes and I made 
a big one early on. I got the introductions out of order and I 
promoted the Chairman of the House Committee and demoted Mr.--
--
    Dr. Roe. It works for me. It is okay.
    Chairman Isakson. ----I promoted Tester, the Senator, and 
demoted the House member, and that is a big mistake. I am sure 
I am going to get 40 lashes later on.
    There was probably an appropriate reason for me to do that 
because I want to lavish some praise on him. Mr. Takano has 
come a long way in two months, and as a Chairman in the House 
he is doing a great job, and we are working just as well 
together as we did with the Chairman from Tennessee. So I want 
to take pride in introducing the Chairman of the House 
Veterans' Affairs Committee, whom I am introducing last instead 
of first, Mr. Takano.
    [Applause.]

              OPENING STATEMENT OF CHAIRMAN TAKANO

    Chairman Takano. Thank you. Thank you, Mr. Chairman, 
Chairman Isakson, and no forgiveness--I mean, let me just say 
that I made a mistake in saying that Ms. Radewagen was from 
Guam instead of American Samoa, and so I am prone to these 
mistakes myself.
    Good morning, Commander, Commander Lawrence. I appreciate 
you being here. And I do cherish the relationship I have with 
Senator Isakson and Ranking Member Roe and Senator Tester in 
the bipartisan way that we come together to help our nation's 
veterans. And I want to welcome every VFW member here today who 
has traveled the distance to be here in this hearing room.
    Commander, I want to begin by recognizing the tireless 
advocates who work every day on behalf of the VFW, and we rely 
on your VFW chapters in our districts and states back home and 
here in Washington, D.C., to be the voice for the millions of 
veterans you represent throughout the country.
    I do want to take special--a moment to recognize my 
California veterans. If you are in the room please stand. Go 
California.
    [Applause.]
    Chairman Takano. Welcome. I would also like to thank the 
VFW for your work on the independent budget with the DAV and 
PVA. It is clear from your latest version that while the VA is 
receiving robust funding there are certainly gaps to close and 
much work left to be done before we achieve our shared goals. I 
ask that the VFW continue to hold the administration and 
Congress accountable and ensure both fulfill our nation's 
promise to veterans, and we look to you to guide our work.
    With your help we have seen a lot of successes over the 
years and we will continue to need your input as we move 
through this Congress. In reading through your testimony, your 
concerns are my concerns and the concerns of this Committee.
    I appreciate that your first priority is my first priority, 
providing health care and disability benefits to the Blue Water 
Navy, as my Ranking Member mentioned, these veterans who were 
exposed to Agent Orange. It is long past time for Congress to 
pass H.R. 299, and I agree, Congress cannot fail these veterans 
again.
    Last week, during a hearing in which Secretary Wilkie 
testified before the House Veterans' Affairs Committee on the 
state of the VA, I asked the Secretary to update me on whether 
the administration will appeal the Court of Appeals for the 
Federal Circuit's decision to extend these benefits to Blue 
Water Navy veterans. I also asked him if Blue Water Navy 
veterans eligible for disability benefits after the court's 
decision will be able to receive health care at the VA medical 
facilities. And although we are awaiting a response from the 
Secretary, veterans should not be made to wait. Congress must 
act.
    [Applause.]
    Chairman Takano. During that hearing I also asked Secretary 
Wilkie to discuss what needs to be done to achieve the 
Committee's vision for VA 2030. The Committee's VA 2030 plan is 
simple. It is a future look at what the Committee envisions to 
be the ideal VA, a VA ready to provide services and benefits to 
veterans, no matter the generation or conflict in which they 
served. That starts with getting implementation of the Mission 
Act right so veterans can access care at VA hospitals and 
clinics and with community providers.
    We share your similar concerns regarding access standards, 
a focus on health outcomes, and hiring and retaining providers 
and employees to fill the 48,985 vacancies at VA. These 
positions need to be filled.
    The VFW's voice must be heard during the Mission Act 
implementation and there must be an open and collaborative 
process. Commander, I ask today that you provide us your candid 
views on implementation thus far.
    I also ask you to continue to highlight and advocate for 
policies to address disparities in health outcomes for 
minorities and LGBT veterans for Congress and the 
administration and the nation. Please continue your passionate 
advocacy for utilization of benefits by veterans suffering from 
traumatic brain injury and military sexual trauma, VA's 
progress on medical cannabis research and health care services 
for former servicemembers with other than honorable discharges.
    I also share your disappointment that, in your own words, 
quote, ``Not a single piece of legislation became law in the 
115th Congress to address the needs of women veterans,'' end 
quote. This must change in the 116th Congress.
    [Applause.]
    Chairman Takano. The first veterans' bill to pass the House 
of Representatives in this Congress was the Veterans Access to 
Child Care Act. It enables veterans with young children to see 
their VA provider without having to choose between making their 
appointments and finding and affording child care.
    I want to thank Congresswoman Brownley for her tireless 
work on that bill and I am excited to have her chair the Health 
Subcommittee and also lead our Task Force on Women Veterans. 
And that is the reason why this is going to change in this 
Congress.
    With the help of our colleagues in the Senate I expect the 
116th Congress will far exceed the 115th Congress in addressing 
the needs of women and servicemembers and veterans. Women 
veterans need to know that today's VA is here to serve them, 
and I urge my Senate colleagues to pass the Veterans Access to 
Child Care Act without delay.
    VA must also take immediate action to address veteran 
suicide and the alarming trend of veterans committing suicide 
in VA medical facility parking lots. As the number one clinical 
priority of the VA I am concerned that resources are not being 
spent to tell veterans and their families about the services VA 
provides.
    I am also not sure if last year's presidential Executive 
order had the impact we were all hoping for. I remain concerned 
that we, as a nation, are not addressing veterans in crisis who 
served in Vietnam, those not utilizing VA health care, and 
those who served in the National Guard and Reserve components 
who never mobilized for deployment.
    As I close I would ask you to continue to work with and 
advise all of us here on the need for a fourth administration 
at VA. I hear your concerns about vocational rehabilitation, 
education services, and the transition assistance program not 
getting the attention and advocacy they deserve under the 
Veterans Benefits Administration. I support the efforts to 
provide a seat at the table within VA for these programs. They 
are vital to the success of our veterans once they leave the 
service. However, having watched VA's implementation of the 
Forever GI Bill, the Mission Act, and the electronic health 
records, I have concerns about VA's ability to implement a new 
administration without a detailed and well-developed plan.
    I would like to work with you to further develop 
legislation to have VA create this plan and inform Congress of 
the budgetary and personnel requirements necessary to execute 
the plan successfully before the new administration is 
authorized.
    Everyone in here agrees one homeless veteran, one 
unemployed veteran or underemployed veteran, one financially 
unstable veteran is one veteran too many. Let us figure out how 
to structure VA to empower employees to make the system work 
for these veterans and structure VA to hold leadership 
accountable for improving veteran outcomes.
    While I touched on a few of the issue areas important to 
you and your membership, know that I am committed to helping 
advance your priorities in the coming year. I began by saying 
your priorities are this Committee's priorities and I meant 
that.
    I look forward to hearing your testimony today and thank 
you again for your tireless advocacy on behalf of the veteran 
community. Thank you, Mr. Chairman, and I yield back the 
balance of my time.
    Chairman Isakson. Well, thank you, sir, and it is now my 
pleasure to introduce Senator Tom Udall to introduce the 
Commander-in-Chief of the Veterans of Foreign Wars.

                       SENATOR TOM UDALL

    Senator Udall. Thank you, Chairman Isakson, Vice Chairman 
Tester, Chairman Takano, and Ranking Member Roe. It is my 
pleasure to appear before you today to introduce the Commander-
in-Chief of the Veterans of Foreign Wars, Vincent Lawrence, 
otherwise known as B.J. Commander-in-Chief Lawrence hails from 
Alamagordo, New Mexico, located close to Holloman Air Force 
Base and White Sands Missile Range.
    Mr. Vincent served in the Army from 1983 to 1986, and was 
stationed in South Korea where he earned the Korean Defense 
Service Medal. He served in his community as a police officer, 
including as an undercover agent, and was in the private sector 
as the owner of Lawrence Investigations. He joined the VFW in 
2000 and has been a successful and dynamic leader in that 
organization ever since. Last July, he was elected Commander-
in-Chief.
    The VFW is the nation's largest veterans organization. It 
is an effective advocate here in Washington and provides needed 
services to veterans around the country. Commander- in-Chief 
Vincent wants to move the organization forward into the new 
millennium, bring in the younger generation veterans, and 
reinvigorate older members.
    His theme for his tenure is ``Make It Happen.'' He is here 
today to advise us on how we can make it happen for our 
nation's veterans. And I would say to you, B.J., these two 
committees, that could be their slogan too. They are great and 
they are bipartisan and they make it happen for veterans.
    The VFW's legislative priorities include passing the Blue 
Water Navy Vietnam Veterans Act to make sure that veterans who 
served in offshore waters of Vietnam and were exposed to Agent 
Orange received disability benefits, improving veterans' health 
care, improving transition services for servicemembers, 
returning home, and improving the airborne hazards and open 
burn pit registry.
    While I am here I would just like to say a few words in 
particular about the last item. Along with Senator Corker I 
sponsored the original Burn Pits Registry Act, signed into law 
in 2013. The national registry helps veterans, doctors, and the 
VA determine the extent that air pollution caused by open-air 
burn pits in Afghanistan and Iraq has led to medical diseases 
among servicemembers. But we need to improve the information 
gathered so that veterans receive the medical treatment they 
have earned.
    Senator Sullivan, here in the Senate, and I are co-
sponsoring a new Burn Pits Registry Enhancement Act to do just 
that. This bill has also been introduced in the House on a 
bipartisan basis by Representatives Wenstrup and Ruiz. I hope 
this Committee will consider this bill soon and I thank you, to 
all the members here, for your work on behalf of the nation's 
veterans. They served our nation, risking everything, and we 
must make sure that they receive all the benefits that they 
have earned.
    And now it is my honor to give you the Commander-in- Chief, 
Chief Lawrence. Lawrence, I am going to say I am sorry to slip 
away on you. I have two other committees meeting, but I know 
from your reputation that you are going to knock it out of the 
park. Thank you very much and thank you once again.
    [Applause.]
    Chairman Isakson. Thank you, Senator.
    It is now my pleasure to introduce the Commander-in- Chief 
of the Veterans of Foreign Wars, Mr. Lawrence. And Mr. 
Lawrence, let me tell you this. When your green light goes to 
red I am supposed to raise hell and get you to stop. I am not 
going to do that. I would not do that to a commander anyway, 
but try and watch the button as much as you can when it turns 
red so we can get everybody included before the hearing is over 
today.
    Thank you so much, Commander, for all you have done for 
your country, for being here today, and for the Veterans of 
Foreign Wars. The mic is yours.

  STATEMENT OF VINCENT ``B.J.'' LAWRENCE, ACCOMPANIED BY BOB 
  WALLACE, RYAN GALLUCCI, CARLOS FUENTES, AND DARRELL BENCKEN

    Mr. Lawrence. Thank you, Mr. Chairman. Before I begin I 
would like to acknowledge and turn over to our Executive 
Director, Mr. Bob Wallace, for some introductions of our 
special guests that are here with us today.
    Mr. Wallace. Members of the Senate and House Veterans' 
Affairs Committees, I am honored to have the privilege of 
introducing the national officers of the VFW and our Auxiliary. 
Mr. Chairman, please allow me to ask those to be introduced to 
please remain standing, and I wish to request the audience to 
holds its applause until all have been introduced.
    The National President of our Auxiliary, Sandy Kriebel, 
from Maryland; Senior Vice President of the Auxiliary, Peggy 
Haake, from Hawaii; Junior Vice President, Sandy Onstwedder, 
from Michigan; National Secretary-Treasurer, Jan Owens, from 
South Carolina; Legislative Ambassador, Kathy Voss, from North 
Carolina; Commander-in-Chief's wife, Mary Lawrence, from New 
Mexico; Adjutant General's wife, Kelly Jones, from Missouri; 
Senior Vice Commander-in-Chief, William ``Doc'' Schmitz, from 
New York; Junior Vice Commander-in-Chief, Hal Roesch, from 
Virginia; Adjutant General, Kevin Jones, from Missouri; 
Quartermaster General, Debra Anderson, from Missouri; Judge 
Advocate General, Dan Nail, from Louisiana; Surgeon General, 
Ruth Fairchild, from Pennsylvania; National Chaplain, Charlene 
Cobb, from Wisconsin; National Chief of Staff, Jerry Herker, 
from Washington; Inspector General, Charley Shoemaker, from 
Kansas; Chairman of the VFW National Legislative Committee, 
Darrell Bencken, from Kansas; Director of VFW National 
Legislative Service, Carlos Fuentes, from Maryland; Director of 
VFW National Veterans Service, Ryan Gallucci, from Maryland.
    I would also like to recognize the VFW SVA fellows. These 
student veterans exemplify the future leaders of our great 
nation, and we also have with us many of our past commanders-
in-chief.
    Thank you, Mr. Chairman.
    [Applause.]
    Chairman Isakson. You being here today, Ms. Lawrence, we 
especially welcome you. The first lady has a big job to do and 
we know you are doing a great job supporting your husband in 
the VFW.
    Mr. Lawrence. Thank you, Mr. Wallace.
    Chairmen Isakson and Takano, Ranking Members Tester and 
Roe, it is my honor to represent the more than 1.76 million 
strong, and growing, membership of the Veterans of Foreign Wars 
of the United States and its Auxiliary. I have had the 
privilege of visiting veteran servicemembers and their families 
around the world to hear how the decisions you make here in 
Washington impact their daily lives. They sincerely appreciate 
your tireless work to improve educational benefits with the 
Forever GI Bill, to enhance access to high-quality health care 
and expand the caregiver program to veterans of all eras with 
the VA Mission Act, and to streamline decisions on their claims 
with Appeals Modernization Act.
    And we thank you for joining us in opposition to 
privatization. I want to make it clear, up front today, that 
the VFW will fight any attempt to privatize the VA health care 
system.
    [Applause.]
    Mr. Lawrence. And as Dr. Roe mentioned earlier in his 
opening comments, the issue I continue to hear about the most 
is Blue Water Navy. The 115th Congress failed to restore care 
and benefits for Blue Water Navy veterans because our Senator 
did not believe Agent Orange made Blue Water Navy veterans sick 
and another veteran Senator was concerned with the cost. We 
hope VA does the right thing by accepting the VFW-supported 
Procopio court decision which overwhelmingly confirmed veterans 
who served off the coast of Vietnam must receive benefits.
    [Applause.]
    Mr. Lawrence. VA cannot continue to deny assistance for 
veterans who are sick and dying from Agent Orange-related 
diseases. To ensure Blue Water Navy veterans never have their 
earned benefits arbitrarily stripped away again, this 
Congress--this Congress must pass the Blue Water Navy Vietnam 
Veterans Act and make it happen.
    [Applause.]
    Mr. Lawrence. The VFW was founded in 1899 by Spanish-
American war veterans. A century ago this year, the VFW became 
the first veterans' organization to establish a permanent 
presence in our nation's capital. That mission continues now 
and that is to help veterans cut the red tape and advocate for 
better care and benefits.
    The VFW has spearheaded or contributed to every reform and 
expansion of federal benefits for veterans, and this include 
the collaborative effort between Congress, VA, the VFW, and 
others to modernize the VA's appeals process so veterans are no 
longer required to wait five years, on average, for decisions.
    The process to overhaul appeals was lengthy and involved 
differing ideas and opinions. Negotiations were difficult at 
times but resulted in everyone involved having ownership of the 
end product. VA has continued this collaborative effort through 
full implementation of a new appeals process this past month. 
As a result, the new process has the best interest of veterans 
at its core and has the potential to improve appeals for 
benefits by the brave men and women who have worn our nation's 
uniform.
    With more than 2,100 accredited service officers who last 
year assisted 526,000 veterans obtain benefits, we will keep a 
close eye on how regional offices and the Board of Appeals 
perform under the new framework and help VA address any 
unintended consequences.
    Specifically, VA must properly address the legacy appeals 
backlog and improve quality so veterans get quick and accurate 
decisions on their claims instead of poorly developed decisions 
that are immediately appealed.
    [Applause.]
    Mr. Lawrence. Timely access to high-quality health care 
remains a major concern for VFW members across the country. The 
VFW continues to assist thousands of veterans who require care 
to cope with their service-related illnesses and injuries. This 
includes more than 10 million volunteer hours every year at VA 
medical facilities and to help support our fellow veterans. We 
do so because more than 80 percent of VFW members rely on the 
VA health care system.
    The VFW thanks you for including the views and interests of 
our members when drafting the VA Mission Act of 2018, but now 
it is time to focus on the implementation of this important and 
multifaceted law. Unlike appeals modernization, VA has elected 
to largely ignore the views of the nation's largest war 
veterans organization when drafting rules to implement the VA 
Mission Act.
    VA executive leadership should be embarrassed that they 
have discontinued VA's strong collaborative relationship with 
the VFW and instead chose to make arbitrary decisions without 
consulting those who most intimately understand VA's mission 
and the needs of the veterans community. VA must discontinue 
the practice of ignoring the veteran service community when 
making such important decisions.
    [Applause.]
    Mr. Lawrence. As a result of that, the VA has betrayed its 
sacred vow to care for all who have borne the battle by 
proposing to charge veterans for service-connected urgent care 
and ignored lessons learned from the Veterans Choice Program by 
continuing to use arbitrary access standards that are not 
tailored to the VA health care system or, most importantly, not 
tailored to the veterans it serves.
    Charging veterans for non-service-connected urgent care to 
deter overreliance is not as acceptable, but VA cannot charge 
for service-connected care regardless of where such care is 
provided.
    [Applause.]
    Mr. Lawrence. The VFW calls on Congress to conduct 
aggressive oversight of VA Mission Act implementation to ensure 
VA expands access to care for veterans by hiring more doctors, 
improving VA's aging infrastructure, and properly implementing 
the new Veteran's Community Care Program.
    The VFW was pleased the VA elected to adopt the same 
electronic health care record as DoD, which puts an end to the 
saga of VA not integrating military treatment records into 
veterans' treatment plans. With an estimated $16 billion price 
tag, Congress must continue extensive oversight to ensure the 
new EHR improves the delivery of care to all ill and injured 
veterans.
    The success of electronic health care record modernization, 
appeals modernization, the VA Mission Act, the Forever GI Bill, 
and other improvements created by VA or established by Congress 
will be significantly impacted by the resources VA is given. 
The VFW has joined our independent budget partners in 
recommending more than $103 billion for VA's budget. This can 
only--this can only be accomplished if Congress ends 
sequestration.
    [Applause.]
    Mr. Lawrence. Over the past four years, VFW members around 
the world have taken an active role in addressing a serious 
issue, suicide. VFW posts which continue to serves as pillars 
of their communities have hosted community service projects as 
part of our mental wellness campaign to destigmatize mental 
health, by teaching veterans and their loved ones how to 
identify mental distress and what local resources are available 
for those struggling to cope.
    Congress must play a role in reducing the rate of suicide 
among veterans by conducting aggressive oversight of VA's 
mental health programs and hiring efforts to ensure veterans 
have access to care when they do turn to the VA for help.
    Congress must also expand peer-to-peer support programs and 
pass legislation to study medical cannabis. Veterans tell us 
medical cannabis works and is a more suitable option than the 
drug cocktails VA prescribes. VA must consider how 
complementary and alternate therapies can help veterans cope 
with PTSD and other conditions such as chronic pain.
    Suicide is a serious issue. We must do what is needed to 
save 20 veterans who take their own lives every day.
    [Applause.]
    Mr. Lawrence. The number of women veterans who have turned 
to VA for their health has tripled since 2001. VA has worked to 
improve gender-specific care for this population of veterans 
but more work needs to be done. Congress must pass legislation 
to improve the gender- specific competency of VA health care 
providers. They must give women veterans the ability to choose 
the gender of their health care provider. They must extend the 
number of days newborn care is covered by VA, and expand the 
successful VA Child Care Pilot Program and require the VA to 
continue to improve privacy at women clinics.
    Finally, Congress must ensure VA conducts targeted outreach 
to women so no veteran is left to wonder what benefits she is 
eligible to receive.
    [Applause.]
    Mr. Lawrence. VFW members have been exposed to toxins 
during every war. These toxins have long-lasting impacts on 
their health and well-being of their descendants. Burn pits and 
other environmental hazards in Iraq and Afghanistan have caused 
irreversible harm to our servicemembers, past and present. 
Servicemembers in peak physical shape when they deployed have 
come back with pulmonary issues and rare cancers that prevent 
them from performing at high levels and eventually become so 
severe that they can no longer keep a job and need 24/7 
caregiver support from their loved ones.
    VA has failed to properly take care of these veterans. So 
we call on Congress to pass legislation requiring VA to improve 
the burn pit registry, to pass the Burn Pit Accountability Act 
which would improve how DoD tracks, treats, and prevents the 
harmful impact of burn pits, and to establish and properly fund 
independent research on the impact of burn pits to include 
gender-specific effects, and finally, to provide veterans 
exposed to burn pits, like those who served in Iraq and 
Afghanistan, the care and benefits they deserve and they need.
    [Applause.]
    Mr. Lawrence. I recently spent a week in Eastern Europe 
with soldiers of the First Armored Brigade Combat Team from 
Fort Riley, Kansas, who are deployed in support of Operation 
Atlantic Resolve. They are able to focus on their mission to 
protect America's interest abroad because they know people like 
the VFW and you are working hard to take care of them while in 
uniform and when they transition in veteran status. Together we 
cannot let them down.
    [Applause.]
    Mr. Lawrence. Congress must reopen transition assistance in 
the community programs for veterans, so recently discharged 
veterans can revisit TAP classes. Congress must provide grants 
for organizations that connect recently transitioned veterans 
with meaningful jobs and conduct oversight to ensure that DoD 
is doing its job to help servicemembers prepare for life after 
military service.
    The VFW has long argued that military retirement pay and VA 
service-connected disability compensation are fundamentally 
different benefits, and granted, for different reasons. We also 
oppose the senseless dollar-for-dollar SBP/DIC offset that 
financially penalizes the surviving spouses of military 
retirees. We again call on Congress to enact full concurrent 
receipt.
    [Applause.]
    Mr. Lawrence. Since 1929, the VFW has been intimately 
involved in fulfilling America's sacred promise to recover 
fallen Americans from long-ago battlefields. This is why the 
VFW works so hard alongside the Defense POW/MIA Accounting 
Agency to reunite our fallen heroes with their loved ones.
    As a Korean defense veteran, I am proud to have worked with 
the administration to secure the recovery of 55 boxes of 
American remains from North Korea and open the door for joint 
field activities to resume hopefully in the near future.
    The fullest possible accounting mission is a top priority 
of the VFW. With more than 82,000 American servicemembers still 
unaccounted for globally, Congress must provide DPAA the 
resources it needs to reunite our heroes with their loved ones.
    In conclusion, the VFW stands ready to help you and your 
staff improve care and benefit for America's veterans, 
servicemembers, their families, and survivors, just as we will 
hold you accountable if you do not.
    [Applause.]
    Mr. Lawrence. I believe your willingness to be on this 
Committee means you will not fail, and neither will we, because 
no one does more for veterans than the VFW, and when we work 
together we can make it happen.
    [Applause.]
    Chairman Isakson. Thank you, Commander. Senator Tester and 
I are going to waive our time at this time because we have got 
a lot of members who are here that we want to make sure they 
get time to ask their questions, so Senator Tester and I will 
go at the end. I do want to make, if it is all right with Jon, 
four points real quickly.
    Number one, I am not going to embarrass the table up here 
by asking them to raise their hands because it is never good 
for a Chairman to ask them to show how they are going to vote 
on something before you have told them they are going to have 
to show their hands to vote. But my suspicion is there are no 
no votes up here in terms of keeping the VA like it is, and 
nobody wants to privatize it. So I want you to understand, when 
you made that point, privatization is not an issue as far as I 
am concerned, and I do not think it is an issue as far as the 
Senate is concerned. I will let the House speak for itself, but 
do not worry about that.
    Second, you made a great statement about ownership. I want 
you to take some ownership too, and all the members of the VFW. 
We are going to have problems as we get the implementation of 
the health care and Choice and all those things, and the 
Mission bill. It is going to be easy for you to find a place 
where you can really raise hell and get us focused on one 
terrible, awful circumstance, at the risk of not taking all the 
good things that happen and building them up. So please join us 
and take ownership with us of the Mission Act and what it is 
doing so we can get over this first hump, which always take 
place.
    You know, every time you do something new everybody would 
have done it different. And I appreciate what you said about 
the VA reaching out. I am reaching out to tell you that I want 
you to join our team and take ownership in it as well, so we 
make that act work as well as we can for everybody. If you do 
that, that would be tremendous.
    We need your input and we need it badly. The last thing I 
would say is this. I have never worked harder in five days in 
my life, in the last five days of the last session. The Senate 
did everything it could do to get the Blue Water Navy bill 
through. But I want to tell you, Mike Enzi is a great United 
States Senator. He did his job. He is not someone that needs to 
be criticized for what he was doing because he is the Budget 
Chairman. A lot of things that were handed to him were things 
he had to do. And I talked to him the other day and was at a 
prayer breakfast with him this morning. He is helping us 110 
percent, talking to the VA about letting us go ahead and get 
this thing done.
    And I met yesterday with the Secretary of the VA, Mr. 
Wilkie, crutches and all, his and mine both, and told him I saw 
no reason to appeal and test a course. A 9-to-2 decision in 
that court is an overwhelming decision. I hope that will be the 
decision they take and we appreciate all your advocacy and your 
help, that Bob Wallace gave me last year. I am going to close 
with that. He is one good dude.
    [Applause.]
    Chairman Isakson. You need to keep him on the payroll 
because he did a great job and helped us do a lot of good 
things, and I appreciate it very much.
    Now we will go to Chairman Takano.
    Chairman Takano. Thank you. Thank you, Chairman Isakson. I 
just want to--I will be very brief with my questions. I 
appreciate the work that the VA has done to include LGBT 
veterans' issues in your written testimony. You explained that 
VA's Central Office currently does not have any representation 
for LGBT veterans and that this lack of representation hinders 
VA's ability to address the LGBT veterans' population's health 
and benefit disparities.
    Commander, I hope you can speak a little bit about why it 
is important for minority populations to have a voice and 
representation at VA's Central Office.
    Mr. Lawrence. Thank you, Mr. Chairman. By having equal 
representation among minorities we satisfy exactly what we 
should receive through VA health care system. That is high-
quality care in a timely manner across all boards. No one 
should have a label on them. Veterans are veterans and all 
veterans demand, all veterans should have equal care across the 
board.
    [Applause.]
    Chairman Takano. Thank you for that. My second question is 
why do LGBT veterans need representation at the VA Central 
Office?
    Mr. Lawrence. Mr. Chairman, we have several different 
minority groups that current receive care. They have specific 
needs. They have specific health care questions and desires. We 
need to be able to address all veterans on an equal platform to 
be able to have VA in a position to answer and to provide the 
veterans with the care they deserve and need.
    Chairman Takano. Well, Commander, I really appreciate that 
sentiment from the VFW. I know that your members fought on 
behalf of our country because they believed in equality before 
the law and equality of opportunity for all Americans, so I 
appreciate that. And with that I am going to yield back the 
balance of my time. We have a lot of people here who want to 
ask questions.
    Chairman Isakson. Thank you very much, Mr. Chairman. 
Ranking Member Roe.
    Dr. Roe. Thank you, and I thank the Chairman. He and I are 
both on the Education Labor Committee and we have got votes 
going on now so we are going to have to step out and go vote, 
Commander.
    I did fail to thank, in my opening remarks, the Auxiliary 
who are here. Our families who are home when we are deployed, 
keep the home fires burning, take cure of all the issues that 
are going on, paying the bills, everything we do when we are 
out having fun, driving around, rolling around in the mud and 
all that stuff we did.
    But I want to thank you all for the support that the 
Auxiliary gives that and I want to give them a round of 
applause.
    [Applause.]
    Commander Lawrence, what do you think are the major 
strengths of the VA?
    Mr. Lawrence. Sorry. I have to remember this button so I do 
not get yelled at by the Chairman.
    I think the VA, honestly, has the best interest of veterans 
at heart. As you spoke in your opening comments, we made a lot 
of progress last year for veterans. What is important now is to 
ensure proper implementation of all those efforts and that hard 
work. I think we are on the right track. As Chairman Takano 
mentioned, we just need to keep a close eye on some areas and 
make sure, and be patient. But at the same time we should be in 
a position, as veteran service organizations, to have a hand in 
that, because it is going to take a collaborative effort. We 
should never be shut down and not asked for our guidance or our 
opinions, based on veterans. We, as a veteran service 
organization, know what is best for our veterans.
    Dr. Roe. I agree with that and I do want to give a shout-
out to your team. Bob, you look great. It looks like you are 
doing well, and he has done a lot of great work. And Carlos, I 
am not so sure about, but anyway--
    [Laughter.]
    Dr. Roe. No. Carlos has been great to work with.
    One of the issues that had, and that the Chairman brought 
up, is the empty slots at the VA. I think that is a challenge 
for American health care across the country. By 2030, we are 
going to have 100,000 too few doctors in this country. And so 
we have taken a real interest in the education part that the VA 
carries, many of us. I was trained partly at a VA hospital, and 
I think it really behooves us to try to encourage that, because 
the VA is going to be short of physicians, as you pointed out.
    That is one of the reasons we passed the VA Mission Act, 
was to use not a privatization but a symbiotic relationship. If 
I cannot see a urologist--I will give you a perfect example. I 
have a got a text right here I got last night. A veteran home 
with a kidney stone. They hurt. And the lithotripter is not 
available because it is mobile, so he has to wait, unless he 
can go out to the private sector and get that done. Those are 
the kind of things where I think we share expertise and get the 
best care for veterans. I think that is how I view the VA 
mission.
    And we tried to put a bill together, Commander, that was 
good for urban America, which is much different than rural 
America. I have been in congressional districts. Greg Walden is 
in Oregon. The square miles are bigger than the square miles of 
Tennessee, that he has got to cover. I mean, he told me that. I 
did not believe it but he was right.
    So designing a system is difficult, and you guys sat around 
a table in my office and helped work that out. And Commander, I 
could not be more supportive of you, when the VA leadership 
needs to sit down at that same table and hammer these things 
out. That is how the Mission Act occurred. It did not occur 
because of what Senator Isakson or Tester or I did. It occurred 
because of what everybody did together. And when we do that we 
will have a bill that will work much better.
    I have--on medical cannabis, you mentioned, I have a bill 
out there that requires the VA to study this. That is where it 
should be studied. Let us find out the risks, the benefits of 
black box warnings and so on. I could not agree more with you 
there.
    Thank you all very much for being here and I appreciate 
what you do every single day for our nation's heroes. And I 
yield back.
    [Applause.]
    Chairman Isakson. Senator Manchin.

                      SENATOR JOE MANCHIN

    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for being here, as you all do every year. And I would like 
to see if my West Virginia Mountaineers would stand to be 
recognized. There we go.
    [Applause.]
    Senator Manchin. As usual, they are the most loyal, 
hardest-fighting people I know and work every day to make West 
Virginia better.
    My question would be, as part of the VA Mission Act 
requirements the VA recently released their access standards 
determining when veterans can see private doctors. Under the 
proposed rules, any veteran who must drive more than 30 minutes 
away longer than 20 days for a mental health care or primary 
appointment would be allowed to use a private doctor. While 
more access to care is a good thing for veterans I have many 
questions about the impact of these rules on the VA's quality 
of care and overall budget.
    I have been asking and the Chairman has been very 
accommodating, but I am asking again that we commit ourselves 
to having this Committee hold a hearing on these access 
standards before the VA's public comment period is over, March 
25th.
    Chairman Isakson. Which will be granted.
    Senator Manchin. Which will be granted. That is very good. 
We are going to have that done. So all of your support is 
great.
    [Applause.]
    Senator Manchin. So my question is how is your membership--
Commander, how is your membership reacting to the newly 
proposed access standards and what is your biggest concerns?
    Mr. Lawrence. Thank you. First and foremost, that access 
standards were written by bureaucrats who do not understand the 
preference of our veterans who actually rely on the VA health 
care system. That has been our biggest complaint.
    Senator Manchin. Right.
    Mr. Lawrence. But in regards to that, we feel that the 20-
day period is just as arbitrary as 30, and as you mentioned, a 
very good point, and I agree with you wholeheartedly, it is not 
one size that fits all. We have different area--rural, metro 
areas. It does not address or take all of those different 
factors into consideration. So that would be our biggest 
concern right now.
    Senator Manchin. Okay. Anybody can answer this question. It 
is, basically, we all know how important family members are in 
caring for severely injured veterans of all eras. It is a full-
time job, physically and emotionally, demanding, and that is 
why I supported the caregiver support program in the Mission 
Act.
    As the VA prepares to expand the program we have received 
reports of challenges with wait times, applications, and 
inappropriate terminations. So anybody who would want to speak 
to this, has a personal experience and want to share it with 
us, on the recommendations for how the VA can make the program 
more effective and accountable. Our intentions are good but, 
you know, sometimes when the rubber hits the ground it does not 
work the way we want it to work. So if you can give us any 
direction on that we would be appreciative.
    Mr. Lawrence. Thank you, and as a matter of fact Mr. 
Fuentes, who is here with me today, he has spoken to some 
family members and had some concerns on the Caregiver Act.
    Senator Manchin. Sure.
    Mr. Lawrence. If you will, Mr. Fuentes.
    Senator Manchin. Thank you, sir.
    Mr. Fuentes. Thank you, Chief. We are tracking that issue 
and it is something that is very important to our membership. 
Seriously, we do not--we cannot afford for caregivers, or 
veterans who transfer from one facility to another to be kicked 
out of the caregiver program. It is great that VA has issued a 
moratorium on revocations. We want to make sure that they get 
the IT system right and want to make sure that the folks can go 
throughout the country and continue to receive caregiver 
program support that they need. But most importantly, we cannot 
allow the VA to use that as an excuse to delay expansion to 
veterans of all eras.
    Senator Manchin. Let me follow up. One final question is 
going to be, since I have been in the Senate--I came in in late 
2010--and from West Virginia, being the governor of West 
Virginia, I was acutely aware of the unemployment, the high 
unemployment of veterans, and I could not believe it. We 
started a campaign called I Hire a Vet. Transitioning a vet 
back into an active, productive life has always been a 
challenge.
    Are we succeeding? Is there something else that we can do? 
Do you see anything that could improve acclimating a vet back 
into the workplace and into a civilian role? Have you had some 
of your vets come into you having a hard time finding training 
or a job?
    I will give you one example. CDLs. A lot of people in the 
military basically are driving heavy equipment. We need 
commercial truck drivers. Paid good money. But we want that to 
transition into CDL. They should be able to get an accelerated 
permit on that using the CDL experience they had in the 
military to come right into the workforce. Those types of 
changes we are trying to make, and any type of skill set that 
you might have gotten while you were in the military, to use 
that rather than going through the rigmarole and all the 
different channels you have to in order to get accredited in 
civilian life.
    [Applause.]
    Mr. Lawrence. We agree 100 percent. I think a lot of that 
also begins that first step is that veteran transition, whether 
that be through the Benefits Delivery at Discharge Program. As 
a matter of fact, Mr. Gallucci, could you explain?
    Mr. Gallucci. Absolutely, Commander-in-Chief, and thank 
you. One of our programs that we run on 23 military 
installations is the Benefits Delivery at Discharge Program, 
inextricably intertwined with the Transition Assistance Program 
that the military operates, helping veterans access their 
benefits as they are transitioning off of active duty.
    One thing that we do to hold our representatives 
accountable is we ask our clients what they thought of our 
services but also what they thought of the Transition 
Assistance Program, and a lot of that information informs some 
of the changes that Commander-in-Chief Lawrence speaks to in 
his written remarks, some of the changes that we are asking 
Congress to make.
    There is one anecdote that sticks out to me. A Marine from 
Camp Pendleton had commented to us about the voluntary tracks 
for the Transition Assistance Program, and when he-- an open-
ended comment, ``Why did you or did you not participate in a 
track?'' he said, ``My leadership team told me I was not a good 
candidate for college.'' That was unacceptable and that is why 
we are pushing for changes to the way that we transition 
servicemembers out of the military, and one of the reasons we 
are asking to once again offer off-base transition training 
like we had had with the pilot program in years past.
    Senator Manchin. Well, I encourage each and every one of 
you to contact your local Congressperson or your U.S. Senator 
at any time with changes you might have, suggestions you might 
have that makes it better for you to transition back into a 
private civilian life, and we thank you all for your service. 
Thank you, Mr. Chairman.
    Chairman Isakson. Senator Cassidy.
    [Applause.]

                      SENATOR BILL CASSIDY

    Senator Cassidy. Thank you, Mr. Chairman. First a shout-out 
to my Louisiana VFW folks.
    [Chorus of cheers.]
    Senator Cassidy. They said Who Dat? That's the Saints 
cheer. We are still a little bitter about that, being robbed of 
our Super Bowl victory.
    Thank you for the work you do, and I will echo what Roe 
said. Thank you to the Auxiliary as well. And, Mr. Gallucci, I 
just want to kind of pick up where you are. One thing I think 
we can celebrate right now, under this economy there is record 
low unemployment for veterans. Is not that fantastic?
    [Applause.]
    Senator Cassidy. And when we speak of suicide and we 
understand that having meaning in one's life is one of the 
things that helps prevent suicide, having a job, a well- paying 
job that gives one self-respect is obviously in that mix. But I 
have learned that transition is when many suicides take place, 
with most suicides occurring, statistically, within a short 
period after someone's separation from the service.
    And it is interesting. I was speaking to an employer back 
home, Performance Contracting, and I gather they are one of the 
leading employers of veterans and they love veterans because 
they have a sense of how to work within a team, how to get a 
job done. They know deadlines. They know consequences if 
deadlines are not achieved, on and on. But they had to hire 
someone in particular to make sure they could navigate these 
programs to get these highly qualified people through the 
process to where they could achieve their potential working for 
Performance. So I applaud you for working on that transition.
    Again, I am a physician. I have just learned that 
transition planning is most important. But it occurs to me they 
had to hire somebody to do it. It does not just happen 
seamlessly. What can we do, on our side, to make this work 
better? I know one of the things is that the office that does 
this might a Department of Labor office, not technically under 
our jurisdiction. But do you have suggestions as to what we can 
do to make it--you do not have to hire an extra person to make 
it happen?
    Mr. Gallucci. Well, a few items, actually, so thanks for 
asking that. I think, actually, a couple of our VFW SVA 
legislative fellows have talked about what happens after you 
transition off of active duty and is there a way to have 
caseworkers that you can connect back to, or at least for an 
interim period have access to the resources that the military 
made available to you while you were on active duty.
    There is precedent for this. There was a health care- 
centric program known as TAMP that allowed those who were 
separated for medical reasons to get access to base resources. 
I was talking with one of our members during this conference he 
was basically telling me that, you know, what happens when a 
servicemember separates in California? They are used to all the 
resources that they have at Camp Pendleton or wherever, and 
they move back to Delaware and they do not know really where to 
turn. The first place they are going to go to is probably going 
to be the military, but they are going to be locked out. So is 
there any flexibility that we can have there?
    The next, we talk about the Off-Base Transition Training 
program in Commander-in-Chief's written testimony, and this 
pilot was well-intentioned but not very well executed with the 
Department of Labor, and it was to do TAP- like training around 
the country. There is one place it was very successful, Senator 
Manchin's home state, in West Virginia. They worked very 
closely with the National Guard to make sure that deployed 
members of the Guard and Reserve had access to this when they 
returned home.
    So we want to see a program similar to that, and the VFW 
has a tremendous infrastructure around the country that may be 
able to help leverage that. There was not much outreach when 
the OBTT pilot program was underway and so we could not flex 
our muscle to assist wherever we could. But we are eager to do 
that optimistic that there are some targets of opportunity to 
reach that very at-risk population.
    Senator Cassidy. Well, I will just say that many of the 
things discussed, whether it is suicide or whether it is the 
ability to afford child care for dependent, or many other 
things on your list are addressed when somebody has better jobs 
and better wages and better benefits.
    So thank you all for what you all are doing on that. It is 
my commitment to work with you all as we help folks transition 
out of serving our country to being able to serve our country 
by other means. Thank you all very much.
    [Applause.]
    Chairman Isakson. Thank you, Senator. Congressman Lamb.

                   REPRESENTATIVE CONOR LAMB

    Mr. Lamb. Thank you, Mr. Chairman, and I have learned over 
time that in many crowds as large as this there will be a 
certain number of Western Pennsylvanians and Pennsylvanians, 
but due to our good fortune over the years there will be an 
even larger number of Pittsburgh Steelers fans. So I would like 
any Pittsburgh Steelers fan among the VFW faithful to stand up 
and be recognized real quick so I can give you a wave. Thank 
you, and that includes your Surgeon General and your past 
Commander-in-Chief, Big John, so happy to have you with us here 
today. Thank you all for everything that you do for our 
community out in Western Pennsylvania. The VFW plays a huge 
role in helping so many people.
    Commander Lawrence, I wanted to ask you, but you can feel 
free to direct it as necessary. You have also served our 
country for a long time as a member of law enforcement, and we 
have a lot of veterans that come back and continue to serve in 
that capacity, as did I. And one of the things that we are all 
facing, which is really a threat to a huge number of young 
people, in particular, is the opioid epidemic. I know it has 
affected people out in New Mexico quite a lot, and Western 
Pennsylvania, West Virginia, Eastern Ohio have been very 
heavily hit by this.
    And so one of the things that we have tried to do to stem 
the tide is to change some of our prescription practices for 
people who are receiving pain treatment and try to get 
alternative, non-opioid measures to prevent people from 
becoming addicted in the first place. And there have been 
various levels of success around the country on that.
    I think it is a place that the Veterans Administration can 
really lead the way, because one of the reasons we want to 
preserve an integrated health system in the VA, and not just 
slice-and-dice the entire thing and give it out to the private 
sector, is because when you have something like substance abuse 
and pain treatment and a co-occurring psychological condition 
all affecting the same patient, it really helps to have 
specialists in all three of those areas under the same roof. 
And inside of VA hospital they are usually under the same roof, 
they usually know each other, and they usually share the same 
mission, which is to really take care of the veteran.
    So I think we have a chance to do this really well and 
teach the rest of the country how to do it, but I would love to 
hear from you about the way the opioid epidemic is affecting 
your members, but in particular, how it might be affecting 
those who are getting pain treatment and have gotten 
alternatives to opioid medications, and how it is going. Thank 
you.
    Mr. Lawrence. Thank you. Well, first off, as you know, the 
opioid epidemic is not specific. It is affecting everyone in 
society as a whole. But as it pertains to our veterans, I think 
one of the key issues is going to be to continue to advocate 
that the VA aggressively pursues research in the area of 
cannabis. In fact, with us today we have a fellow from 
Louisiana who is aggressively pursuing legislation that would 
demand VA to do research in the area of cannabis.
    But as you said, we agree with that statement. Alternate 
forms of pain management are going to be the key. But certainly 
do not want to put ourselves in a position where we have 
veterans utilizing cannabis or other means that have not had an 
opportunity to go through the study and research process. At 
the end of the day, we need to know, is this going to work? Is 
it not going to work? How is it going to affect veterans and 
their health, or how is it not going to affect them? So I think 
that is the avenue we need to pursue aggressively.
    Mr. Lamb. Thank you very much, Commander, and Mr. Chairman, 
I yield back my time.
    Chairman Isakson. Mr. Bergman.

                  REPRESENTATIVE JACK BERGMAN

    Mr. Bergman. Thank you, Mr. Chairman. It is good to see so 
many familiar faces sitting at the head table here. You know, 
as a proud life member of the VFW--
    [Applause.]
    Mr. Bergman. --by the way, any Michiganders here? All 
right. There is one. Good. There you go--three, four. Look at 
that. You guys pop up like Whack-a-Mole in Chuck E. Cheeses. 
Glad you are here.
    You know, like so many folks at the end of World War II, my 
dad being one, when they came back to all over America but 
especially Small Town America, they did what they believed the 
right thing to do was, which was, number one, go back into 
civil society and build our nation after the war.
    But what they also did was created so many local VFW posts 
so they could sit down, have a cup of coffee, have a beer, have 
a time together where not only the servicemembers spent their 
time together and, in some ways, self-treated themselves when 
it came to the rigors that they had seen in Europe or in the 
South Pacific. And I remember as a kid growing up, I was that 
little, you know, 6-, 7-year-old kid that was walking around 
sweeping up at the VFW but listening to the conversations. They 
were emotional, they were strong, but they were therapeutic.
    And as we move forward today, as you, as the VFW, or any of 
the other veteran service organizations, we are better because 
we help each other, and that eyeball-to- eyeball interaction 
that we have is going to go a long way towards the mental 
health of our young veterans.
    Now I would like to talk a little bit about transition 
training, because I was listening to the testimony here. And 
just one quick question. Are you focused on the transition for 
a 20-plus-year individual or are you focused on the transition 
for a 4-year, you know, young man or woman who served honorably 
for 4 years, they all signed an 8-year commitment so now they 
have got 4 years in the IRR before they are released. Where is 
the focus on the transition training?
    Mr. Lawrence. The focus actually has to be on both.
    Mr. Bergman. Where do you put the emphasis, though? I mean, 
do you see--because you can say ``both'' but unless you tailor 
it. Because at one point you are talking to a 22- year-old and 
at another point you are talking to a 40-year- old. And, oh, by 
the way, when you walk out the door in 20 years, what are you 
walking out with? You are walking out with a little bit of a 
pension so you have got kind of a little, you know, financial 
nest egg coming in where maybe your needs are not quite as 
immediate.
    And now these are Marine Corps stats, but if 100 young men 
and women enlisted in the Marine Corps today, at the end of 
their first enlistment roughly 70 to 75 of them would say, ``It 
has been great fun. It has been an honor. But I have got some 
things I want to do in the civilian world.'' So we build our 
career force on about 25 percent of those who originally walk 
in the door.
    So I look at the majority. So I am looking at that 22- to 
26-year-old transition, which is a whole lot different. So any 
thoughts on that and how we are doing that specifically?
    Mr. Lawrence. I think they both--let me clarify my 
statement of ``both.'' It was kind of open-ended. I do think 
they both offer unique challenges, individual challenges, 
because of the different demographics. Ryan, if you would?
    Mr. Gallucci. Sure. Thank you, Chief. General Bergman, good 
to see you again.
    Mr. Bergman. Always good to see you, Ryan.
    Mr. Gallucci. And so when we say we focus on both, for 
retirees there are obviously different benefit packages that 
they can take advantage of and different advantages, and even, 
in some ways, disadvantages they may have when they transition. 
But a lot of our focus for the work that we do on military 
installations right now, we try to focus it toward the junior 
enlisted separating servicemember, the one-termer. And the 
reason is because there is usually a larger deficit in what 
they are entitled to.
    There is something tragic happening here, though. We took a 
look at our clients that serve on military installations, and 
except for one exception most of them we predominantly serve 
are retirees. And we believe the reason is because it is harder 
to reach that younger audience. They are not thinking about 
their future in the same way.
    I like to say there is no reasonable way for a 
servicemember to anticipate the challenges they are going to 
face in civilian life until the uniform comes off. And so what 
we try to do when we interact with a transition servicemember 
is tell them where they can go for assistance in their 
community when they go home. But I have had the opportunity to 
sit in on some TAP briefings and even talk to some young 
servicemembers, and it is harder to get that message to 
resonate. A retiree has been preparing for the end of their 
career for a very long time, in many instances, and we even had 
one retiree who had a misconception about the services we 
provide on benefits and thought it was for retirees.
    Mr. Bergman. I hate that my time is--and you and I-- Ryan 
and I know each other very well because we have had many 
discussions over a long period of time, and the challenge--and 
I see my time has passed--but I believe there is an opportunity 
for all, especially the VFW, to work with those different 
services who have responsibility for the individual Ready 
Reserve. They are obligors to reach out, because that is 
exactly that population that you are talking about. It is a 
challenge. And I think there is opportunity for collaboration 
between the services and the VSOs in that IRR population.
    I yield back, sir.
    Chairman Isakson. You know, I was an NCO. I know better 
than to criticize a general.
    [Laughter.]
    Chairman Isakson. Mr. Levin, Congressman Levin, can I ask 
you a question? Which one are--are you the famous Michigan 
Levin?
    Mr. Levin. No. I am the less-famous Levins of California.
    Chairman Isakson. Well, they are a good family.
    Mr. Levin. The more-famous Levins are in Michigan.
    Chairman Isakson. Tell them I said hey.

                   REPRESENTATIVE MIKE LEVIN

    Mr. Levin. Well, thank you, Mr. Chairman. I am so grateful 
for the opportunity to join you here today. Thank you, 
Commander. I also have a great responsibility. I am the new 
Chair of the House Economic Opportunity Subcommittee, and I am 
really grateful for your testimony on a lot of the issues that 
our subcommittee is going to be covering, and I am just really 
excited to be working with you, because you are going to be a 
critical partner.
    Veterans' issues are so critically important to my 
district. Camp Pendleton is right in the middle, right at the 
heart of our district, with I MEF, and then we have got Orange 
County and San Diego County. So our district, I think, is an 
example of just so many great VSOs doing amazing work all 
around our community, and I look forward to having best 
practices from there hopefully spread across the country and in 
those areas where we still are having issues, like homelessness 
being one of them, where we can learn best practices across the 
country.
    I do have a couple of questions and I wanted to address 
homelessness again. Deeply familiar to us in Southern 
California, in general. We had a gentleman who does a lot of 
work with local VSOs in our office yesterday morning. He 
estimates we have around 1,300 homeless veterans in our greater 
area, which is, you know, 1,300 too many. And I am curious what 
you think we can do to strengthen and improve the HUD-VASH 
program and some of the related programs that are available.
    Mr. Lawrence. Well, one of the areas that we see that could 
definitely be addressed and corrected is as it pertains to what 
we call couchsurfing. So currently, VA waits until a veteran is 
``under a bridge'' before they are offered the services, as you 
know, and able to take part in those homeless veterans' 
programs.
    When we have a homeless who may have this family member 
allow them to stay with them for a week, and a buddy or a 
friend they met stay them this week, as you know, that denies 
that veteran an opportunity to participate in a homeless 
veteran program. I think we need to pursue that in itself. I 
think we need to make some changes with the VA. A homeless 
veteran is a homeless veteran, and as I say all the time, and I 
said it today in my testimony, no veteran should ever not have 
a roof over their head or worry about where their next meal is 
going to come from.
    [Applause.]
    Mr. Lawrence. It is staggering, but, of course, it has got 
to take a collaborative effort on everyone's part. We have good 
folks out there doing good things. We have a large VFW 
community in Florida that provides thousands of meals to 
homeless veterans, on a daily basis. But it going to take all 
of us to solve the homeless veterans' issues, and I think this 
would be a great first step in identifying, or if we have to 
redefine, whatever we need to do to say they are homeless 
veterans and not merely a couchsurfer, if you will.
    Mr. Levin. Thank you, Commander. I also appreciated reading 
about your effort to crate a fourth administration to oversee 
VA economic opportunity programs, and I share your dedication 
to making sure these programs receive resources and attention 
that they need. I know that Chairman Takano has brought a bit 
about this issue to light as well, and I am very pleased that 
the Chairman is interested to making sure the VA structure 
improves veterans' outcomes in this regard.
    So beyond generating increased attention for economic 
opportunity at VA, what do you think the other benefits might 
be of the proposal to create a fourth administration?
    Mr. Lawrence. The big one, I think, is going to be as it 
relates to the voc rehab piece, of course. It puts veterans 
back to work and keeps them off the unemployment line. First 
and foremost, that is going to be our first line of defense.
    The funding has been flatlined for years and not enough 
attention has been paid, as you know, to this critical program. 
The way we answer that is VA must continue to hire counselors.
    Mr. Levin. Very good. I want to thank you again so much for 
all you do. I learned much about patriotism and service from 
grandfather on my dad's side who was a World War II veteran and 
I am just so grateful to have the opportunity. He is not with 
us but I know he would be grateful that his youngest grandson 
has the chance to work with you all. You are my heroes. Thank 
you all so much.
    Mr. Lawrence. Thank you so much.
    [Applause.]
    Chairman Isakson. Let me apologize. I am going to have to 
slip out. Ranking Member Tester is going to finish the hearing 
for me, in a bipartisan effort, if that is okay. To show you 
how bipartisan we are, we just handed off to one another, 
Democrat and Republican alike.
    I want to thank all of you for the great testimony, thank 
all the members for being here, and it is my pleasure to 
recognize Congresswoman Radewagen.

               REPRESENTATIVE AMATA C. RADEWAGEN

    Ms. Radewagen. Thank you, Chairmen Isakson and Takano, and 
Ranking Members. I want to thank you all for your service to 
our great nation. It is that sacrifice that allows us to be 
here today, and we are all most grateful.
    I also want to thank you all for being here today to inform 
Congress of the VFW's legislative priorities for the 116th 
Congress. Your advocacy on behalf of our nation's veterans is 
legendary, and I know that I can speak for everyone here this 
morning when I say that this entire Committee, on both sides of 
the aisle, are fully dedicated to ensuring that the Federal 
Government lives up to our end of the bargain when it comes to 
providing the best resources and services to our veterans.
    I want to extend a special thank you to the VFW Hawaiian-
Pacific delegation for meeting with me in person yesterday, and 
thank you to High Chief Igafo Maria Va'a, Hawaii VFW State 
Commander, who hails from American Samoa.
    [Applause.]
    Ms. Radewagen. Thank you for all the hard work you and the 
rest of VFW Hawaii do on behalf of our Pacific veterans. As a 
member who represents a U.S. territory I am particularly 
interested to hear about your priorities for those veterans who 
live in either rural or remote locations, such as my home 
district of American Samoa, where our people enlist into the 
U.S. Armed Services at a rate higher than that of any other 
state or territory in the nation. This is a fact that we are 
all very proud of.
    In the past, our veterans in these rural and remote 
locations have often been denied the services they have 
earned--not purposefully--but often they do not know the 
resources available to them or must travel long distances to 
receive services.
    So I look forward to working with the VFW and other VSOs to 
improve the outreach to these areas in partnership with the VA 
and welcome your input in this mission.
    Thank you again for being here today. Your work is so 
important in ensuring that Congress is fully informed on those 
issues that are most important to our veterans, and thank you 
again for your service to our grateful nation.
    Thank you, Mr. Chairman. I yield back the balance of my 
time. Soifua.
    [Applause.]
    Senator Tester. [Presiding.] Congressman Cisneros.

                  REPRESENTATIVE GIL CISNEROS

    Mr. Cisneros. Thank you very much. I would like to thank 
all of you for coming out today, the VFW showing up in force. I 
would especially like to recognize those from California, 
especially Art Napiwocki, Deb Johnson, Tommy Dorsey, Tim 
Bryant, Mike Seward, and Nick Guest. So thank you all for 
coming out here and supporting our veterans.
    [Applause.]
    Mr. Cisneros. I always like to say that I am the grandson 
of veterans, the father--I mean the son of a Vietnam veteran, 
and I am also a veteran myself. My father is a lifetime member 
of the VFW. He got that membership that was bought to him by 
his uncle, who was also a lifetime member. And so, again, I 
just want to thank you all for your service.
    [Applause.]
    You know, one issue that has always been important to me is 
education, and, of course, we know how transformative the GI 
Bill can be. In fact, I used the GI Bill myself in order to 
help me continue my education. And right now Congress passed 
the Forever GI Bill, which is one of the biggest changes to it 
since the post-9/11 GI Bill, but the VA had some problems with 
the implementation with that.
    So going forward, as we get to that point to where we are 
going to impellent this come this December, the end of the 
year, how can Congress, working with the VFW, ensure that the 
rollout is smooth and that we take care of these issues and we 
do not have a problem, you know, with that young Marine that 
you met with, that said, you know, people denying him access to 
his benefits, which, to me, is 100 percent uncalled for and we 
cannot allow that to happen. So how can Congress, working with 
the VFW, make sure that we get a smooth transition of the 
Forever GI Bill?
    Mr. Lawrence. One of the key ways is to bring in veteran 
group schools to make sure that it is implemented properly. 
That way VA does not develop their changes in a vacuum. That 
was a lot of the problem.
    But also with any type of electronic transition, one, the 
personnel utilizing those systems has to be trained properly 
and the system is only as good as the people inputting the 
information. I think that is the first step.
    Mr. Cisneros. You know, like many of my colleagues here had 
said today, transition assistance or the TAP program is 
something that is very important to me, and I also serve on the 
House Armed Services Committee. And I just want to let you know 
that this a key issue that I am going to continue to work on, 
on both committees that I serve on, to make sure that our 
veterans get that smooth transition from active duty service 
into veteran status. I think the problem too often is that the 
emphasis is put on the individual to go out and seek the 
benefits from the. We have got to finish that and make sure 
that the benefits are given to the individual when they get out 
of service.
    So I just want to make this commitment to you, that I am 
going to continue to work on that, as I serve on both of these 
committees, because we need to take care of our veterans and 
make sure that they are getting the health care that they need, 
making sure that they are getting the education benefits that 
they need, and all the benefits that they deserve and that they 
committed part of life of service to that they earned.
    So I just want to thank you all again for being here, thank 
you for your service to our country, and God bless all of you.
    [Applause.]
    Senator Tester. Thank you, Congressman. Next we have the 
co-sponsor of the Deborah Sampson Act that will allow our women 
veterans to get the promises that we have made to them, my good 
friend from Arkansas, Senator Boozman.

                      SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you, Senator Tester, very much, and 
thank you, Commander, for being here and sharing your thoughts 
as to what we need to be doing, the priorities, and then also 
your great team. They do a tremendous job. I am afraid of my 
boss. He is a big guy. I am afraid he will whip me.
    But the other thing I would like to say is how much 
appreciate the Auxiliary. We know who is the backbone of the 
group and does a tremendous job, so thank you all for your 
service.
    And as I have said before to the groups, you know, we are 
up here, and this is a very bipartisan group, as you can see, 
trying to get the job done. We are kind of the tip of the spear 
but we cannot do it without your help. And the fact that you 
look out and you see standing room only, that is the most 
important think. And so thank you, all of you, for making the 
trip and being part of this, talking to your Senators or 
Congressmen, telling them how important these things are, and 
reminding them that these are not give-mes. These are earned 
benefits.
    I want to give a special shout-out to our folks from 
Arkansas. Can you wave your hand? Very good. We appreciate you 
guys.
    [Applause.]
    Senator Boozman. Nobody does a better job than they. And 
like the rest of you do a great job of communicating to myself 
and my staff how the policies that we are talking about impact 
the veterans of Arkansas.
    I want to really concentrate on two things today. I would 
like to talk a little bit about the implementation of the 
Mission Act, which is such a big thing, and then also, as was 
pointed out by Senator Tester, the efforts in trying to make it 
such that we can better accommodate our women veterans in the 
force.
    Commander, in your testimony you said the VA, Congress, 
veterans' organizations must work collaboratively to ensure 
that the Mission Act is implemented in the way that it needs to 
be done. You also noted that you were disappointed in the VA 
not using the voices of your 1.6 million members out there in 
the decision-making process of access standards, the 
development of that.
    What do you believe the VA should do to better ensure, 
going forward, that they are bringing veterans and VSOs into 
the process?
    Mr. Lawrence. First and foremost, let me be clear. In past 
years we have not had or seen obstacles with the VA that we are 
seeing today as it pertains to what I spoke about. For some 
reason when it came to access standards it was a big secret. It 
was like we were working on a special project and nobody could 
get a hold of the information, and quite frankly, we did not 
know about it until it was released.
    If VA would have taken the time to, one, recognize the 
valuable input that the veteran service organizations could 
lend to developing those access standards, they set theirselves 
up in a better arena not to fail. We know what our veterans 
want and need as it comes to health care. We asked repeated. As 
a matter of fact, as an example, we kept being told, ``We will 
let you know next week. We will let you know next week.'' Next 
week never came. Finally, the final rollout came and then we--
that is where we discovered that there were some issues with 
the access standards.
    Just gathering that valuable information ahead of time, it 
could have saved VA from having some issues with the access 
standards.
    Senator Boozman. Very good, and I agree totally as does, I 
think, the Committee.
    In regard to the Deborah Sampson Act we appreciate Senator 
Tester's leadership in that area. We came forward, reintroduced 
that this year, and we appreciate your support of the bill, and 
we are going to work really hard to make sure that we get it 
done.
    In this year's bill we have increased reporting 
requirements for women's health care providers and for 
infrastructure needs unique to women's health care delivery so 
that we can make the best resource decisions to improve care 
for our women veterans.
    And we very much, in the spirit of what you just talked 
about, you do have a tremendous group out there, many of them 
women, and so we will be looking to you all for leadership.
    Very quickly, in just a minute, do you have any suggestions 
in that regard now as to what we need to focus on? It is kind 
of an open-ended question.
    Mr. Lawrence. I know where you are going. Thank you.
    Yes, we definitely need to continue our focus on expanding 
mental health expertise for postpartum disorders. We need to 
definitely improve gender-specific competencies and, as you 
know, expand newborn care in the child care pilot. And we 
continue seeing concerns among our women veterans--we hear it 
repeatedly, as it pertains to privacy. We have a large women 
veterans voice. In fact, with me today I have seven women 
veteran commanders of their prospective states that are in 
leadership roles in the VFW.
    [Applause.]
    Senator Boozman. Thank you. Senator Tester.
    Senator Tester. Senator Blumenthal.

                   SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. Thanks, Senator. Thank you all for 
being here. Thank you to you, Commander Lawrence, for your 
service and your leadership, and to all of the VFW members from 
Connecticut. If there are any here, please stand so I can thank 
you personally.
    [Applause.]
    Senator Blumenthal. Thank you. Thank you for being here. 
Thank you for your leadership.
    I cannot tell you how important you are as a presence and 
as a face and voice, the veteran service organizations, and 
most particularly this one has played such a vital role in 
expanding health care, as well as job opportunities and skill 
training, really across the board, and still we have a lot more 
to do. And so I really want to commit to you that we will be 
listening--we will be listening to the VFW going forward.
    I hope that the VA will be listening to you as well. I hope 
the VA will heed and hear views of your members as I have done 
in my state of Connecticut, because you are the source of 
insight and wisdom for them as well, and most especially on the 
Blue Water Navy Veterans Act. I came within a hair of gaining 
unanimous consent in the Senate for this measure. I will not 
use my time to go through the labyrinth of delay and obstacles 
that we almost overcame.
    But now we have the opportunity, not just through 
legislation but through the VA declining to take an appeal. All 
the VA has to do to provide this vital assistance to the Blue 
Water Navy veteran is to decline to take an appeal from the 
recent court decision. I hope they will hear from you, to tell 
them the court has decided there is no reason for any more 
delay in treating the Blue Water Navy veterans fairly and 
effectively.
    [Applause.]
    Senator Blumenthal. Likewise, on other kinds of legislation 
where there were toxic substances on the battlefield, whether 
it is the Fairness for Korean DMZ Veterans Act, the Agent 
Orange Exposure Fairness Act, which I did as a result of one of 
my constituents, Jerry Wright, championing this measure, ride 
across the country with ``Sprayed and Betrayed'' on the back of 
his motorcycle. And, in fact, some of you probably know Jerry. 
Jerry is a tireless advocate for our veterans.
    And I want to say, as well, Commander, that these issues of 
exposure to toxic substances, I know the VFW has done some 
great work on it, do you plan to continue that work?
    Mr. Lawrence. Most definitely. We are going to continue 
that work until all of our veterans receive the care they 
deserve.
    Senator Blumenthal. Thank you.
    [Applause.]
    Senator Blumenthal. On the VA access standards for private 
health care, I am really delighted and grateful that Chairman 
Isakson has said to us today that there will be a hearing on 
the VA's implementation of the Mission Act. I hope you agree 
that congressional oversight is necessary before the final 
publications of regulations for the Mission Act. I hope we have 
your agreement on that.
    Mr. Lawrence. You do.
    Senator Blumenthal. Thank you, sir.
    Let me say, finally, the President, yesterday--I am sure it 
has been observed before--has established a task force on 
veteran suicide. I welcome that action, but I hope also that 
the VA will commit to using the funds that have been 
appropriated for veteran suicide and outreach to veterans who 
may be at risk of suicide, so they can be brought into the 
system and that they can provided with the excellent care that 
is available for them.
    So I hope that the VFW will support our efforts to require 
the VA to use the existing money for greater outreach.
    Mr. Lawrence. Yes, sir. I also agree. The Executive order 
is going in the direction we are looking for. I believe it is 
going to take a collaborative effort on all of our parts, if we 
have any hope of putting an end to veteran suicide, and 
definitely we need to ensure the funding is available for those 
programs and the outreach and counseling that the veterans need 
for that.
    Senator Blumenthal. Thank you very much. Thank you, 
Commander. Thank you to your excellent team, and thank you for 
being here today.
    Thank you, Mr. Chairman.
    Senator Tester. Yeah. Thank you, Senator Blumenthal.
    [Applause.]
    Congressman Banks.

                    REPRESENTATIVE JIM BANKS

    Mr. Banks. Thank you to the Ranking Member and Chairman 
Takano. It is great to be with you, Commander, to the VFW team. 
As a proud member of the VFW myself I am reminded how important 
of an investment that I make--
    [Applause.]
    Mr. Banks-- every year when I pay my dues, when I see you.
    This has been a good week for veterans, right, from the 
President's Executive order that the Senator just talked about 
to what happened in the House yesterday, passing the Burn Pit 
Registry Enhancement Act, that will impact veterans from the 
war in Afghanistan, like myself, and other veterans who are 
here in the room today. That is piece of legislation that 
passed with broad bipartisan support in the House that we need 
to see passed through the Senate as well.
    None of that is possible without your work and your 
activism on Capitol Hill, so that is why I am proud to welcome 
all of you here today.
    I understand we have a number of Hoosier veterans in the 
room. If you would stand it would be great to see your faces.
    [Applause.]
    I appreciate your leadership at the state level and every 
time you come and visit me. Rich Mrozinski, Eric Bellman, 
Michael Sims, Greg Baker, Troy King, Corey Mahan, thank you 
very much. God bless you for the work that you do for our 
Hoosier veterans and our veterans nationwide.
    I will be brief and end with that, but again, we cannot do 
our job in advocate as effectively as possible for veterans 
without your support, and the VFW is second to none in your 
activism and we appreciate all that you do.
    Thank you, and have a great day. I yield back.
    [Applause.]
    Senator Tester. Thank you, Congressman. Senator Blackburn.

                    SENATOR MARSHA BLACKBURN

    Senator Blackburn. Thank you to the Ranking Member and the 
Chairman, and especially thank you to each of you for taking 
the time to be here and to advocate for your issues. I have had 
the opportunity to visit a couple of times this week with our 
Tennessee delegation and I bet they are in this room somewhere, 
wearing their orange ties. Raise your hands.
    There you go. I told you.
    [Applause.]
    Senator Blackburn. You know, we are ready for some UT 
basketball, are we not? We are going to win.
    But I do want to say thank you for your service and I know 
that I do not stand alone in saying our hope is that the 
service we give the country honors the service that you have 
given, and we appreciate, more than you know, what you have 
done.
    We are focused on your issues and know them well. The burn 
pit registry, we have discussed this with some of our 
Tennesseans, making certain that we deal with the Blue Water 
Navy issues, the concerns that are there, the women's health 
issues for women veterans, looking at the contribution of our 
spouses, making certain that we deal with the issues that 
affect our spouses and widows of our veterans, and, of course, 
as we have mentioned already, the mental health issues.
    I want you to know, too, that we are going to continue to 
work on access to health and health care. This past Friday, I 
had the opportunity to go to the Gallatin, Tennessee, Veterans 
Clinic that was opening. And I have four veterans that are 
members of our team. Three of them were with me for that 
clinic. And I appreciated so much that this is a whole-of-life 
clinic, one of the new models of clinics that are opening that 
deal with every specter of health care that you all need, and 
it is all right there in one place.
    And, Commander, during that visit, as we opened that 
clinic, there was a lot of talk about expanding the Mission Act 
and allowing a veteran to take their card and go to a clinic in 
their home community for primary care and be able to get that 
and then come to a specialized clinic for specialized care, but 
utilizing telemedicine and digital imaging and some of these 
health care technology advancements that we have had.
    And I would love to hear from you, just a second, your 
thought very quickly on what you would like to see us do to 
expand the Mission Act and to expand those choices and options 
for our veterans.
    Mr. Lawrence. The veteran must always have the choice when 
it comes to health care. The veteran should always receive 
high-quality health care in a timely manner. I think there is 
not one easy answer, because as we know, the private sector, 
studies show the private sector cannot always provide that care 
faster than the VA. We still see issues where a veteran goes 
out into the private sector only to find out, oh, now my 
appointment time is going to be three months in the private 
sector, so then they come back to the VA and they are put back 
in the back of the queue again.
    That is what we are trying to avoid. We are trying to avoid 
those long wait times and that delayed care.
    Senator Blackburn. I appreciate that, and that is one of 
the reasons I think the new style clinic is so vitally 
important, because you can get mental health, you can get 
women's health, you can get primary care, you can have 
telemedicine available for behavioral health, and then you can 
receive those referrals right there in that clinic. And my hope 
is the VA will pick up the pace and get more of these clinics 
deployed in communities across the country.
    We are so grateful that you all are here. Thank you so very 
much, and I yield back my time.
    Senator Tester. Thank you, Senator.
    [Applause.]
    Congressman Cunningham.

                 REPRESENTATIVE JOE CUNNINGHAM

    Mr. Cunningham. Well, it is almost afternoon so I will say 
good afternoon and thank you all for coming. I represent the 
First Congressional District of South Carolina. It stretches 
from Charleston all the way down to Hilton Head, and is 
objectively the best district in the entire country. I can say 
that. And I can say also that the veterans have realized that 
as well, as our district has the highest percentage of 
population of veterans in the entire state of South Carolina.
    And, you know, I was honored to have a female veteran come 
into our office just yesterday and bring to our attention that 
in the entire state of South Carolina there are only two OB-
GYNs employed by the VA in the entire state. And so I guess my 
question to you, Commander, is do you think that is anywhere 
near enough, and what can we be doing to take care of the 
women's health care as the number of women veterans are 
expected to rise and rise, and what can we be doing in South 
Carolina and within the VA itself?
    Mr. Lawrence. I do not think it is South Carolina- 
specific. I can tell you right now, two OB-GYN positions is not 
enough.
    But on a serious front, that is actually what we have been 
advocating for. As we know, the VA has over 40,000 openings of 
staff, openings that need to be filled. With that we would 
advocate that they need to seek out aggressively and get 
practitioners in to answer the needs of our women veterans. 
Women veterans still have--they still want to choose the gender 
of their medical practitioner and they can only do that, one, 
if the VA is staffed appropriately and if the VA takes the time 
to take into consideration the specific needs of our women 
veterans.
    [Applause.]
    Mr. Cunningham. I appreciate that. Can you give any other 
advice or guidance as to what VA can be doing to do a better 
job of recruiting, retaining, and expanding that practice for 
future?
    Mr. Lawrence. Well, they have to have the flexibility and 
support to attract those medical physicians and specialists to 
want to come to the VA to work, but the VA cannot do that if 
their hands are tied. They need to be able to offer incentives 
or whatever they need to do to get folks to come work for them.
    Mr. Cunningham. I appreciate that, Commander. Thank you for 
time. Thank you, each and every one of you, for your service as 
well.
    [Applause.]
    Senator Tester. Thank you, Congressman.
    Well, we have come to the most entertaining part of this 
hearing, because since Johnny gave me the gavel I am going to 
call on Senator Sullivan first, followed immediately by Senator 
Tennis, regardless if a Democrat comes in or not, simply 
because we can talk about the metrics of how many veterans are 
in each one of these guys' states.
    So, Senator Sullivan, you have the floor.

                      SENATOR DAN SULLIVAN

    Senator Sullivan. Thank you, Mr. Chairman, and I appreciate 
that, and I am glad you previewed a little bit of my comments. 
I do want to just do a quick shout-out and ask for my fellow 
veterans from Alaska. If you are here can you please stand? How 
about a round of applause for them? All right. There we go.
    [Applause.]
    Senator Sullivan. David and Bill, Walter, Todd, Charlotte, 
Liz, thank you for being here. You know, you are right. We all 
brag about our states, but we are all doing it for the right 
reasons because we are so proud of all of you. I mean, you 
know, there is a lot of talk about the 1 percent in America. I 
like to say this is the actual less than 1 percent of America, 
the less than 1 percent who have the courage to raise their 
right hand to support and defend the Constitution and possibly 
die for their country. So how about a round of applause for the 
real 1 percent.
    [Applause.]
    Senator Sullivan. And we also, you know, like to brag a 
little bit about our states as it relates to veterans. My 
state, the great state of Alaska, has more vets per capita than 
any state in the country. Now Senator Tillis and I, he is from 
North Carolina, we joke about some metrics and I am sure he 
will have some counterpunches. So I just will not raise the 
fact that Alaska is 14 times the size of North Carolina, I am 
not going to raise that. It is a little embarrassing so I will 
not raise it here in this Committee.
    I also want to just mention, you know, I have been a member 
of this Committee my whole time in the Senate, but I had always 
thought that the rules did not allow you to join the VFW if you 
were still serving in the military, in the Reserves. I am still 
in the Reserves. I am a colonel in the Marine Corps Reserves.
    [Applause.]
    Senator Sullivan. That is right, for the Marines here. 
Oorah. But, Bill Yudiskas, one of the great former commanders 
in Alaska has been a good advocate and has convinced me that 
the rules do not say that, that if you qualify to be a VFW 
member you can join, even if you are still serving in the 
Reserves. So I want to say proudly to Bill and others from 
Alaska, this is my first hearing as a full-fledged member of 
the VFW.
    [Applause.]
    Senator Sullivan. There is my card. Post 9785 in Eagle 
River, Alaska. So I am proud to join this great organization, 
finally. So thank you, Bill, for your strong advocacy--I would 
say your incredibly relentless advocacy.
    So, Commander, I actually wanted to ask a serious question. 
In your testimony you mentioned some of the reforms in the 2019 
NDAA. I also serve with Senator Tillis on the Armed Services 
Committee that drafts that bill, that talks about some of the 
Transition Assistance Programs. And I always think is an area 
where we can do better.
    You may have seen--I am sure you all did--I just came from 
a hearing on the Commerce Committee that talked about the 
maritime industry. You may have seen yesterday the President 
issued an Executive order to make it easier to get our veterans 
into the maritime industry, because our veterans have so many 
skills that they learn in the military and they can take to 
private industry. And now with this very low unemployment rate 
in the country our companies need the great opportunities that 
they have to hire veterans more efficiently, more quickly.
    What are some of the things that you can recommend, to 
either this Committee or the Armed Services Committee, that we 
can make improvements on that? I am assuming you all support 
what the President did with his Executive order in the last 
couple of days with regard to the maritime industry, but what 
more can we do, because I think we can be doing a lot better in 
this area, and your organization is the perfect one to provide 
us recommendations for that.
    Mr. Lawrence. Three of the key points that we look at in 
that area, one is reopen transition assistance in the community 
program for veterans, so recently discharged veterans can 
revisit those TAP classes.
    Senator Sullivan. Right now they do not have the 
opportunity to go back on base and do that?
    Mr. Lawrence. Correct.
    Senator Sullivan. Okay.
    Mr. Lawrence. Provide grants. We can provide grants for 
organizations that connect recently transitioned veterans with 
meaningful jobs, and conduct oversight to ensure that DoD is 
doing its job to help these servicemembers prepare for life 
after they get out of the military.
    Senator Sullivan. And you think the TAP program at most 
bases is efficient or it is just kind of a check-the- box thing 
that members want to get through and then move on?
    Mr. Lawrence. Well, I think that in a lot of cases we- -I 
just recently returned from Europe, visiting some of our troops 
there, and I think awareness of what those classes actually 
have to offer. And I do not know if the answer is to provide 
more outreach to them, to let them know, you know, this is 
important and this is what you have available to you to make 
that transition.
    Senator Sullivan. Well, we want to work with you on that. I 
will tell you one other area that I think is exciting. A lot of 
the unions, like in Alaska, a lot of the building trades, you 
know, the operators, the laborers, steelworkers, these are all 
organizations that have a lot of vets. They want to bring our 
vets in quickly, because they are such good workers. So we look 
forward to working with you on that issue. It is an important 
issue. We are making some progress but I think we can do 
better.
    So thank you. Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator. Senator Tillis.
    [Applause.]

                      SENATOR THOM TILLIS

    Senator Tillis. Well, as a Senator from one of the states 
that was a part of the original colonies I am glad that we did 
the hard work to lay the groundwork for Alaska to become a 
state. This whole banter back and forth between my buddy, 
Senator Sullivan, and I came from a discussion where--Senator 
Sullivan is a fierce advocate for Alaska. That is why I like 
him so much. But he made a comment that he has a higher 
population per capita of veterans than any other state in the 
nation.
    Senator Sullivan. That is true.
    Senator Tillis. And I told Dan, I have got more veterans 
than you have got people----
    [Laughter.]
    Senator Tillis. ----which is also true.
    Senator Sullivan. That is true too.
    Senator Tillis. But the reason I say that, on the one hand 
it is just fun to banter between two buddies, but on the other 
hand it also demonstrates the diverse nature of the challenge 
that we have. You know, a state like North Carolina, that you 
rightfully tell me is several times smaller than Alaska, with 
these number of veterans in urban centers, different provider 
networks, have very different approaches to providing quality 
care and access than Alaska.
    And so we have to, as we implement the Mission Act and as 
we implement tweaks to it, we need to make sure that we do not 
come across with this concept that it is a one-size- fits-all 
approach.
    We also need to make sure that we are doing a better job of 
working with the states to overcome some of the hurdles that 
are, in part, limits of state policy on health care--
telemedicine across state lines, those sorts of things, where 
we have got to provide an incentive for the states to get 
engaged to provide a better standard of care. There is no 
reason, if someone in Alaska needs help and it is a service 
that can be provided through telemedicine, let us just find a 
professional somewhere in this great country that can provide 
on that telemedicine.
    So we need to just continue to hone and provide, I think, 
some reasonable solutions to some kinks that we are going to 
have in the Mission Act.
    One other thing I will tell you, in terms of attracting 
talent to the VA, is we need to make sure we send a very clear 
message that we have got some kinks to work out but it is a 
good system. The brick-and-mortar presence is critically 
important. I do not believe there is anybody in Congress who 
seriously thinks that we should just completely privatize and 
leave for the private sector to serve our veterans. It would be 
wrong because you would be walking away from an extraordinary 
health care and an institution that is dedicated to veterans.
    So what we need to do is make sure that while we rightfully 
point to think that need to get better we also point out there 
is a lot of hard-working people in these VA health care 
facilities. About half of them are veterans themselves. They 
care about the care that they are giving to people, and it is 
an honorable profession, that we just need more people. We need 
more doctors, more nurses, more therapists, more people coming 
into these facilities so that we can eliminate the wait times 
and all the other challenges.
    In my remaining time, Commander, I happen to have the 
privilege of being on the Veterans' Committee but I am also the 
Chair of the Personnel Subcommittee in Senate Armed Services, 
so TAP is right in my lane. And I think the one thing that we 
are going to do--I have spoken with the Committee staff--is 
that we really do need the veterans' perspective on how better 
to prepare someone to transition to veteran status.
    And I do believe that in some cases it is a check-the- box, 
and in some cases it is a one-size-fits-all. You know, somebody 
as old as him going through TAP is going to have a different 
set of needs than some 20-year old. So we have got to figure 
out how to tailor and identify ways that we are really 
beginning to focus on the likely challenges and opportunities 
someone is going to have, based on the skills that they have 
gained while they served and the challenges that they are going 
to have when they ultimately transition into veteran status.
    So we need a lot of feedback on how to do that better, 
particularly going into the NDAA and going into this Congress, 
suggestions that you all could provide us would be very 
helpful, suggestions that you can provide us for employment, 
which again, in many instances, is going to be taking some of 
the skills that someone has gained, either in active duty, 
Reserves, National Guard--and I guess in the case of Reserves 
and National Guard they have occupations-- but others may be 
able to take skills that they have learned while they are 
serving that should translate into certifications and jobs that 
right now are a little bit difficult.
    Again, most of those are the purview of the state. We can 
provide some incentive for states to enter compacts so that it 
is easier for someone with medical experience to move into a 
nursing field or CDL driver's license or any number of skill 
sets that they are prepared for in their service and that we 
should find a way to get them employed and make them productive 
in their post-service life.
    So I am here to thank you all and I am also here, Ranking 
Member and Chairman, I would like to make one suggestion. I do 
not know if they are here, but this morning when I was walking 
in it was cold, and I happened to see two gentlemen waiting in 
line. I went up and said, ``You here for the hearing?'' 
``Yes.'' ``You a veteran?'' ``Yeah.'' ``You cold?'' ``Yeah.'' 
``Do you want to skip line?'' ``Yeah.'' So I brought them in.
    [Laughter.]
    Senator Tillis. If we are going to continue--and there they 
are. So, you know, I think a week ago I probably had about 40 
come through because they happened to be all in line at the 
same time. I would urge, if we are going to continue to have 
these hearings during cold weather months or inclement weather, 
that we try to figure out a rally point with your home states 
or with other members so that we can figure out how to get 
these people through, because I do not think these folks should 
have to wait in line. Thank you.
    [Applause.]
    Senator Tester. Thank you, Senator Tillis, and I agree, 
although when I came walking up this morning all the folks from 
Montana had their coats off because it is so damn warm here.
    [Laughter.]
    Senator Tillis. Tell me about it.
    Senator Tester. Look, being the last one and everything has 
been said but not everybody said it, so it is my turn. I just 
want to thank you for being here, Commander Lawrence. I also 
want to echo what was said earlier about Bob and Carlos. They 
are top-flight guys. They do a great job for the VFW here in 
Washington, D.C., making sure that you guys' voices are being 
heard.
    I also want to thank you, Commander, for what you are doing 
to destigmatize mental health. This is a huge issue in this 
country. It has already been pointed out, it is both in the 
civilian sector and with our veterans. The key is that the VA 
is going to be the one that figures out the solution. And with 
your help and with our help and everybody else, I think it 
requires a team of folks to get their arms around this.
    But I want to thank you for your leadership on this issue. 
It is an important one. It is one we have got to get our arms 
around, because it ain't getting any better.
    And then I just want to--and there are some folks from 
Montana here and I want to describe a situation because they 
will back me up on this, where you go to the VA and you go get 
an appointment, and say you have got a shoulder problem and 
they do not have the kind of person they need. They ship you 
into the private sector. That is what the Mission Act is for.
    What is happening in Montana right now, because we do not 
have our physicians filled, is a veteran will call in and 
before they even schedule them for the VA they pump them into 
the private sector. Nobody up here wants privatization but that 
is de facto privatization. We cannot allow that to happen. The 
VA is the largest health care system in this country. The folks 
I talk to that are veterans want that VA there. It is there.
    I have said this before. We can outsource the service but 
cannot outsource the responsibility. So I appreciate, in your 
testimony, talking about exactly that, Commander.
    I have a couple of questions here, and that is, do you 
believe that your members prefer health care from the VA?
    Mr. Lawrence. Yes, sir, I do.
    Senator Tester. Okay. Do you believe that community 
providers should be held to the same standard as the VA 
providers?
    Mr. Lawrence. Yes, sir, I do.
    Senator Tester. So would the VA support an expansion of 
care into the community or more convenient access if it meant 
reduction in quality or timeliness?
    Mr. Lawrence. There should never be a reduction in quality 
or timeliness when it comes to serving our nation's veterans.
    Senator Tester. Amen, brother.
    [Applause.]
    Senator Tester. And does the VA actively engage the VFW in 
its process for developing market area assessments and 
strategic plans?
    Mr. Lawrence. No, they do not, and that is where they are 
missing the boat.
    Senator Tester. Okay. And so--
    [Applause.]
    Senator Tester. Right on. And so I think you have already 
said this but I want to repeat it. The organization--was your 
organization consulted on the VA's development of proposed wait 
time and drive time standards?
    Mr. Lawrence. No, sir, they were not.
    Senator Tester. Okay. And if you would have been consulted, 
would you have had input?
    Mr. Lawrence. We would have a whole lot of input.
    [Laughter.]
    [Applause.]
    Senator Tester. Well, look, they are probably not here 
although there might be some from the VA here, but I guarantee 
you they are watching it on TV. And I will tell you that I have 
a tremendous amount of respect for Secretary Wilkie and I do, 
and I do not know why, but we have had the conversation before, 
that if he wants to be successful--and I want him to be 
successful--we need good leadership at the VA. If we are going 
to have good leadership at our VISNs and different VAs around 
this country he has got to take input from the VSOs. You guys 
are on the ground. We have to take input from the VSOs as we 
are making policy that affects you.
    God bless every one of you and thank you for being here.
    [Applause.]
    Chairman Takano. The proceedings are adjourned.
    [Whereupon, at 12:11 p.m., the Committees were adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

      
                                  [all]
</pre></body></html>
